    LEGAL SERVICES CORPORATION

       BOARD OF DIRECTORS




               America’s Partner For
               Equal Justice




SEMIANNUAL REPORT TO THE CONGRESS

          FOR THE PERIOD

 APRIL 1, 2002 – SEPTEMBER 30, 2002



                      NOVEMBER 30, 2002
                                   F OREWORD

       I am pleased to transmit the Semiannual Report of the Legal Services Corporation
(“LSC” or “Corporation”) Board of Directors (“Board”), providing comments on the
Semiannual Report of LSC’s Office of Inspector General (“OIG”) for the six- month
period of April 1, 2002, through September 30, 2002, and providing further explanation
of LSC’s activities during the reporting period.

        LSC’s Board recognizes the value of the Inspector General function and remains
committed to working with the OIG to achieve our goal of providing high quality legal
assistance to the poor of our nation.



                                                  ______________________________
                                                  Douglas S. Eakeley, Chairman
                                                  Legal Services Corporation
                                                  November 30, 2002




                                           i
                                     TABLE OF CONTENTS

Message of the Board of Directors .........................................................................1

Background ..........................................................................................................2
      The Legal Services Corporation ..................................................................2
      Funding and Grant Making Activities .........................................................2

Management Initiatives............................................................................................3
     State Planning ..............................................................................................3
     Competition..................................................................................................4
     Technology Efforts ......................................................................................5
     Program Visits..............................................................................................6
     Work with Newly Reconfigured Programs..................................................6
     Training ........................................................................................................7
     Loan Repayment Assistance Program .........................................................7
     Performance Measures to Evaluate State Justice Communities ..................7
     Performance Measures to Assess Outcomes for Clients..............................8
     Diversity, Inclusion and Multi-Cultural Competency .................................8
     Rulemaking Activities..................................................................................8
     Litigation Update .........................................................................................9
     Implementation of the 2000 Census ............................................................9
     Work of the Office of Compliance and Enforcement ................................10
             On-Site Reviews ............................................................................10
             A-50 Follow-Up .............................................................................10
             Complaint Investigations ...............................................................11
             Subgrants Under 45 C.F.R. Part 1627............................................11
             Fund Balances Under 45 C.F.R. Part 1628 ....................................11
             Prior Approvals Under 45 C.F.R. Part 1630 ..................................11
             Audit Reports .................................................................................11


Table I: Management Report on OIG Audit Reports of Grantees
         Issued With Questioned Costs for the Six-Month
         Period Ending September 30, 2002 ........................................................12

Table II: Management Report on Audit Reports Issued
          During the Six-Month Period Ending
          September 30, 2002, With Recommendations
          That Funds Be Put to Better Use ...........................................................13




                                                     ii
                    MESSAGE OF THE B OARD OF D IRECTORS


        As the LSC Board of Directors concludes its ninth year of service, we welcome
the opportunity to address the Congress and share our perspectives on the current state of
federally- funded legal services for low- income Americans. LSC is in the third year of
implementation of its Strategic Directions 2000-2005, the principal goals of which are to
increase access to justice and improve the quality of civil legal assistance on behalf of the
needy and less fortunate. While LSC and its grantees continue their undertaking to
maximize the cost-effective use of limited federal resources and to leverage those
resources to raise funds from state and local governments, foundations and private
sources, the significant unmet need for civil legal assistance in the Untied States reminds
us starkly that we are far from achieving our national commitment of "equal justice for
all."

        LSC made continued progress in its State Planning Initiative during the reporting
period. Over the past six months, LSC facilitated and approved structural changes in two
states in order to develop more effective and economical legal services delivery systems.
The consolidation of service areas and programs 1 in these states has been designed to
maximize economies of scale, evenly distribute access to services, and broaden the
delivery of the services available to low-income clients. LSC also provided technical
assistance to thirteen states to assist them in planning and implementing the structural and
service delivery changes necessary to achieve State Planning goals. Finally, LSC staff
traveled to eight states to conduct evaluative and planning meetings with grantees and
state equal justice planning bodies.

        During the reporting period, LSC continued work on other initiatives to support
its grantees and to improve the quality and accessibility of services, including the use of
technology to promote and facilitate access to legal services. It has provided a broad
range of technological assistance to programs during the reporting period, and it has
focused particular attention on projects designed to increase substantially access to legal
services, such as the creation of statewide websites and technological projects that assist
pro se litigants.

        Some of LSC’s additional efforts during the reporting period include continued
program visits to discover innovative procedures that may serve as models for other
programs ; work with newly reconfigured service areas to ensure the development of
comprehensive delivery systems throughout enlarged geographic areas; training to legal
services lawyers on the use of the internet and other resources for poverty law research;
and attempts to address the large student debt loads that frequently dissuade new lawyers
from pursuing careers in legal services programs. LSC also continues to monitor its
grantees for compliance with federal law and LSC regulations, working closely with the
Office of Inspector General.
1
 ‘Programs’, ‘recipients’, and ‘grantees’ are used interchangeably in this report to refer to recipients of
LSC funding.


                                                       1
                                      B ACKGROUND


Legal Services Corporation

        The Legal Services Corporation is a private, non-profit corporation established in
the District of Columbia by the Legal Services Corporation Act of 1974, as amended (the
“LSC Act”), 2 to provide financial support for legal assistance in civil proceedings to
persons unable to afford legal services. LSC is governed by an eleven- member bi-
partisan Board of Directors appointed by the President of the United States with the
advice and consent of the Senate. The Board appoints LSC’s President, who serves as
the Corporation’s chief executive officer, subject to general policies established by the
Board.

       The 1988 Amendments to the Inspector General Act of 1978 (“the 1978 Act”)
required LSC to establish an Office of Inspector General (“OIG”) and extended specific
provisions of the 1978 Act to LSC. Accordingly, such an office was established by and
for LSC. The Inspector General is appointed by, reports to, and serves under the general
supervision of, LSC’s Board of Directors.

Funding and Grant-Making Activities

       LSC provides funding to legal services programs serving indigent persons
throughout the 50 states, the District of Columbia, Puerto Rico, the U.S. Virgin Islands,
Guam and Micronesia. To carry out the purposes of the LSC Act, President Bush has
recommended an LSC appropriation of $329,397,000 for Fiscal Year 2003. On July 18,
2002, the Senate Appropriations Committee approved the Commerce, Justice, State and
the Judiciary appropriations bill, which included LSC’s FY03 appropriation. To date,
there has been no vote in the full Senate. The House has yet to act on the bill in
committee. Currently, LSC is being funded at FY02 levels and is operating under a
continuing resolution set to expire on January 11, 2003.

        LSC's annual federal appropriation has remained static for the past three years,
notwithstanding the increasing need for civil legal assistance among low- income
Americans and decreasing state government and private support due to the economic
downturn and low interest rates. LSC's current appropriation of $329 million is $86
million less than its FY 1994 appropriation of $415 million.




2
    42 U.S.C. §§ 2996-2996l.


                                            2
                             MANAGEMENT INITIATIVES


        During this reporting period, LSC continued its efforts to improve the efficiency
of its competitive grant award system and the effectiveness of the delivery of legal
assistance through its initiative for statewide planning and coordination of legal services.
The Corporation continued to demonstrate its ability to ensure both compliance with
program rules and regulations, and the maintenance of high quality legal assistance to
eligible clients.

State Planning

        LSC continues to promote efforts by its grantees to develop comprehensive,
integrated delivery systems that reach a greater number of persons, with a broader range
of services. The state planning initiative requires grantees to work with other providers
and stakeholders within each state, such as the courts, bar associations and client groups,
to assure that a full range of high quality services are available to clients regardless of
their location within a given state.

       During the reporting period, LSC initiated structural changes in two (2) of the
most populous states, Florida and New York, in order to develop more effective and
economical systems for the provision of legal services to low- income clients. LSC staff
worked with the following six (6) additional states considering similar changes:
Alabama, Massachusetts, Mississippi, Missouri, Oregon and South Dakota.
Consolidation of service areas and programs enables recipients to take advantage of
economies of scale, evenly distribute access to services, and broaden the delivery of the
services available to low- income clients. Since 1998, the number of grantees has been
reduced from 262 to 170 through the state planning process.

        LSC made continued technical assistance available during the reporting period to
help the following ten (10) states plan and implement the structural and service delivery
changes necessary to reach state planning goals: Arkansas, Iowa, Louisiana, Missouri,
New Mexico, New York, North Carolina, Tennessee, Texas, and West Virginia. LSC
also provided new technical assistance to Alabama, Mississippi, and Montana.

        During this period, LSC staff traveled to the following eight (8) states to conduct
evaluative and planning meetings with grantees and state equal justice planning bodies:
Alabama, Delaware, Kansas, Montana, Minnesota, Mississippi, New York and
Tennessee. Varying in length from several days to a week long, these visits inform LSC
of the progress and challenges in these states. They also provide grantees and their
partners with solid information about achievements in other jurisdictions, innovative
ideas, and LSC’s expectations with regard to state planning.

      LSC staff attended regional meetings of mid-west and southeast LSC grantees in
Chicago and Florida to discuss state planning progress during the reporting period.


                                             3
        Taken together, these efforts have resulted in significant, positive changes for
LSC’s clients throughout the country, including development of additional resources for
civil legal services, new and more efficient ways of providing legal information and
advice to low- income persons, and more effective and economical structures to assure
equal justice to a greater number of Americans.

Competition

        The objectives of the competitive grants process are to maintain current
information about the legal services delivery system, to facilitate integration of diverse
delivery strategies, to improve LSC’s knowledge of “best practices” and “model
projects,” and to help LSC make informed grant decisions.

       During calendar year 2003, LSC will award competitive grants to applicants in
ninety-seven (97) service areas in twenty-eight (28) states, the District of Columbia,
Guam, Micronesia, Puerto Rico, and the Virgin Islands. The 2003 competition process
will be completed on schedule in December 2002 for all single applicant service areas.
Grant payments will be distributed to successful bidders during the first week of January
2003.

       LSC received multiple applications for service area MI-14, which encompasses
fourteen (14) counties in the east-central section of Michigan. LSC will conduct a
capability assessment in January 2003 to determine the most qualified applicant. Grant
decisions will be made in early March 2003. To ensure continuous service to clients,
LSC will extend the grants of the current legal services providers in this service area
through April 2003.

         The competition process continues to evolve into a more useful tool for capacity
building within the legal services delivery structure, for identifying areas for further
improvement, and for networking legal services programs into comprehens ive integrated
delivery systems. During the months of February and March 2003, LSC will distribute
letters to applicants that filed grant proposals for 2003 funding, seeking feedback on the
application process. These letters and their responses will be used to initiate LSC’s
assessment of the grant application process and the delivery system.

        The competitive grants process is automated through an Internet application
system, permitting analysis of current information on legal needs, response strategies, and
administrative and management systems. As a result, LSC can develop greater
intelligence about the many strengths and potential weaknesses in the delivery system.
Model program initiatives, advances in technology, programs diversity and training
strategies, and new client-centered delivery strategies are being identified through the
competition process so that they can be shared and replicated by legal services programs
across the country.




                                            4
         This year, LSC is considering the use of electronic grant award letters. This
initiative will permit LSC to establish a permanent electronic archive of competitive grant
contracts and provide immediate automated access to grant award documents. It will also
generate cost savings associated with postage, printing, and staff coordination.
Successful applicants will access their electronic grant award documents from a secure
website.

        LSC’s competitive grants process fully complies with the Congressional
requirement to award grants through a system of competition and to ensure the most
efficient and effective delivery of services to the client community.

        An overview of the competitive grants process, the request for proposals,
instructions, resource materials, and key competition dates are available at
www.ain.lsc.gov. The documents can be accessed by clicking on “Bulletin Board” from
the home page of the website.

Technology Efforts

        During this reporting period, LSC issued its third series of grants in the
Technology Initiative Grant Program. LSC awarded fifty- five (55) technology grants
totaling $4.4 million, all of which were targeted to improve access to justice by the
indigent through the use of technology. Examples of technology grants issued during this
period include the following:

   •   A grant to an Alaska program to install computers in six (6) courthouses,
       providing access to legal information and self- help materials through the Alaska
       statewide legal services web site;

   •   A grant to a program in Guam to install twenty-one (21) computers in the village
       mayor’s offices, again providing access to legal information and self- help
       materials through the territory’s web site (which is being constructed with a
       separate LSC technology grant);

   •   A grant to LSC’s Maryland recipient to create an internet-based, pro se litigant
       support system, to be offered at some of the state’s twenty-four (24) court- funded,
       pro se assistance programs. Users will be able to access resource files, as well as
       their own personal web pages as “personal case account managers.” The work
       under this grant will include the development of a panel of attorneys to provide
       “unbundled” services to the indigent (i.e. to undertake finite aspects or tasks of
       cases), as well as mediators willing to offer free services to pro se litigants; and

   •   A grant to the Legal Aid Society of Orange County (California) to expand the I-
       CAN! (Interactive Community Assistance Network) system, to offer assistance
       with the Earned Income Credit (“EIC”) tax benefit. This expanded service will
       enable low-income workers to file for the EIC tax benefit by helping them to
       complete both a Schedule EIC and the 1040, 1040A or 1040EZ tax form. Upon


                                            5
       completion of the form through the I-CAN system, workers will be able to file the
       returns electronically. The Internal Revenue Service (“IRS”) is a partner in this
       project, and the project will enable the IRS to increase the number of returns
       completed electronically.

        During the reporting period, LSC awarded an additional twelve (12) grants to
fund statewide web sites, bringing the number of states that are now building and /or
maintaining such sites to over forty (40). These sites are being constructed to provide
low income persons and other citizens with a central resource for legal information and
self-help materials in their respective states. LSC has arranged for a donation from
Lexis-Nexis of its document assembly software (i.e. HotDocs) for each state, which will
increase the availability of legal forms that low- income persons can complete themselves
through statewide websites.

        To further promote the ability of indigent, pro se litigants to represent themselves
in court, LSC has worked with the National Center for State Courts, the State Justice
Institute, the American Judicature Society, Pro Bono Net, and Zorza Associates to create
a web site to serve as a resource center for professionals developing self- help projects.
LSC also made presentations at the annual Conference of Chief Justices, and the annual
Conference of State Court Administrators, to brief judges and court administrators on
advances in pro se technology systems which may be of use in their courts.

Program Visits

       During the reporting period, LSC continued visiting programs to assess quality,
provide technical assistance, assess progress in achieving a comprehensive delivery
system in recently reconfigured service areas, address problems, and evaluate innovative
procedures which may serve as models for other programs. These visits reaffirmed
LSC’s belief that such evaluations expand its understanding of programs’ activities
otherwise gleaned from competition applications, grant activity reports and anecdotal
information.

        To ensure that programs act on recommendations LSC makes in connection with
on-site visits, LSC has communicated, and/or planned follow-up visits with programs
visited in 2000. LSC has also distributed to other programs the inventive delivery
systems observed on these program visits.

      From April 1, 2002 through September 30, 2002, teams consisting of LSC staff
members and consultants visited ten (10) programs. Two (2) more visits are planned in
2002.

Work with Newly Reconfigured Programs

       In 2002, LSC made twenty-four (24) grants to programs serving newly-
configured service areas. In order to ensure that grantees were making significant
progress in achieving comprehensive delivery systems throughout the larger service


                                             6
areas, LSC attached special grant conditions to these 2002 grants. These grant conditions
require the submission of periodic written reports on specific aspects of comprehensive
delivery systems. LSC closely analyzed these reports and provided written and oral
feedback to each grantee.

Training

        Through a special grant to the National Center on Poverty Law, attorneys at eight
(8) programs received specialized training during this reporting period on the use of the
Internet and other resources for poverty law research. Under this grant, the National
Center on Poverty Law also wrote a New Attorney Manual, which will be widely
distributed to new legal services attorneys during the latter months of 2002. The manual
will also be available in an electronic form that can be accessed by any legal services
worker. The objectives of this manual are to connect new legal services attorneys to the
poverty law community and its resources; give a basic road map to selected areas of
poverty law; describe how to meet legal needs of certain client populations; and offer
research and practice tips.

Loan Repayment Assistance Program

        Many new attorneys are dissuaded from joining a legal services program because
of the heavy debt they incur to attend law school. LSC is working with the American Bar
Association’s Commission on Loan Repayment and Forgiveness to examine and report
on the effect of the inc reasing educational debt of law school graduates on the legal
profession, and specifically, the effect of such debt on new graduates interested in
pursuing careers in public interest law. This year the Commission’s work focused on
devising solutions to mitigate the debt burden.

Performance Measures to Evaluate State Justice Communities

        In December 2001, LSC retained the services of Greacen Associates to create an
instrument that allows LSC to make reasonable and comparative judgments about the
effectiveness, efficiency and adequacy of state justice communities established through
LSC’s State Planning Initiative. To assist with this process and ensure that the product is
most effective for the legal services community, LSC established a Design Team to work
with Greacen Associates. In addition to LSC staff, team members include representation
from LSC-funded programs, other legal services providers, foundations, the judiciary,
academia, the American Bar Association and the National Legal Aid and Defender
Association.

       A draft of the evaluation instrument was circulated for comment to all LSC
grantees, state equal justice planning bodies and other interested stakeholders in August
2002. LSC received a number of comments which the Design Team will consider in
November 2002, prior to testing the instrument in two states in January 2003. The
Design Team will then review the instrument in light of the experience at the test sites,
with the goal of producing a final instrument for use in late spring of 2003.


                                            7
Performance Measures to Assess Outcomes for Clients

       During this reporting period, LSC initiated efforts to develop a new tool to
measure the work that its grantees perform on behalf of low-income clients and their
communities in terms of achieved outcomes. LSC issued a Request for Information
(RFI) to begin collecting outcomes-based measurement tools used by legal and social
services agencies throughout the country. During the next reporting period, these
measurement tools will be analyzed in terms of the ir utility and validity relative to LSC’s
needs and purposes, and LSC will then initiate the process of developing its own
measurement tool.

Diversity, Inclusion and Multi-Cultural Competency

        LSC continued its efforts to ensure that its grantees recognize the importance of
diversity and inclusion in terms of serving new client communities and groups. During
this reporting period, LSC worked with its Diversity Advisory Board to develop a
training module to train Boards of Directors of recipient programs on the value of
diversity and the need to ensure that programs remain competent to serve clients of
different backgrounds who speak languages other than English. The draft training
module was tested during this reporting period and will be formally launched on
November 22, 2002.

        LSC also continued activities to monitor its grantees’ performance in terms of
retaining diverse staff and leadership. LSC issued a report that analyzed data submitted
by grantees over a ten- year period to determine whether grantees’ efforts to maintain
diverse and multi-culturally competent staffs were improving and to learn if LSC’s State
Planning Initiative had a deleterious effect on the numbers of women and people of color
in leadership positions within the legal services community. LSC determined that
although state planning had contributed to a decrease in the numbers of Executive
Directors, state planning had not resulted in a decrease in the percentage of Executive
Directors or other leaders from minority communities or among women.

Rulemaking Activities

         During the reporting period, LSC initiated one (1) rulemaking and continued work
on two (2) others. LSC issued a Notice of Proposed Rulemaking to consider revisions to
its regulations on the Outside Practice of Law (by full-time attorneys working for LSC
grant recipients) at 45 CFR Part 1604. The proposed rule is a republication of revisions
proposed in 1995, but upon which final action was never taken. Work continued on
Negotiated Rulemakings to consider revisions to LSC’s regulations on eligibility (45
CFR Part 1611) and restriction on legal assistance to aliens (45 CFR Part 1626).
Working Groups consisting of representatives from LSC, grantees and national
organizations interested in legal services met under the direction of a professional
facilitator, starting in January 2002 and continuing through the spring. Neither Working
Group has yet completed its work, but LSC anticipates publishing Notices of Proposed
Rulemakings based on the Working Groups’ deliberations later this year. In addition, the


                                             8
Board of Directors identified the Corporation's regulations at 45 CFR Part 1602,
Procedures for Disclosure of Information under the Freedom of Information Act, as an
appropriate subject for rulemaking to consider several technical amendments. LSC
anticipates initiating a rulemaking on this subject in the near future.

Litigation Update

        On August 14, 2002, the United States District Court for the Western District of
Virginia issued its opinion in Legal Services Corporation v. Client Centered Legal
Services of Southwest Virginia, Inc., 217 F. Supp. 2d 706 (W.D.Va. 2002), a case in
which LSC sued a former grantee to recover LSC’s interest in real property purchased by
the program with LSC funds. The court held that the LSC grant applications and
incorporated grant assurances that the program executed on an annual basis created a
valid contract that required the former grantee to vacate the building and dispose of it
pursuant to LSC’s directives. LSC directed the former grantee to transfer the property to
its existing grantee, Southwest Virginia Legal Aid Society (“SVLAS”). Although the
former grantee has appealed the court’s decision, it has vacated the building, which is
now being used by SVLAS for the provision of free legal services. The transfer of the
property will enable the existing grantee to use money that would otherwise have been
spent on rent for the provision of legal services.

Implementation of the 2000 Census

        The 2000 Census poverty population statistics became available in June 2002.
The release of this data required LSC to recalculate poverty populations by county and
adjust funding levels for service areas accordingly. 3 During July 2002, LSC recalculated
the percentage of its funds that should be distributed to respective states based on the
newly released census data. LSC also recalculated poverty populations for its service
areas and grantees and adjusted grant amounts accordingly, to provide for the allocation
of LSC funds in a way that corresponds with the number of individuals in poverty in each
service area.

         The poverty population of each service area was computed by summing the
poverty population of each county in each service area. The new poverty population
statistics were released to the public at LSC’s August 2002 Board of Directors meeting.

        From 1990 to 2000, the national poverty population increased over 5% and
shifted significantly among states. As a result of the population shift and LSC’s
corresponding, statutorily-driven recalculation of funds for service areas, LSC funding to
27 states and two territories will decrease by almost $18 million. These funding
reductions will cause serious disruption in services and involve layoffs of many skilled
and experienced legal aid attorneys.

3
  LSC ultimately decided to maintain migrant funding at its current level for FY2003. Although the
migrant population continues to grow and migrants and their families continue to have significant unmet
legal needs, the Census does not track migrants within the poverty population, so LSC does not have
sufficient information on migrant population distribution to implement adjustments to its migrant funding.


                                                    9
        Puerto Rico alone will lose almost $3 million, Michigan and Ohio will lose almost
$2 million each, and Louisiana will lose over $1 million. Fifteen states will lose over
10% of their LSC funding. Seven of the fifteen states will lose 15%-20% of their
funding, and two states, North Dakota and Iowa, will lose over 20% of their funding.
These nearly devastating reductions in funding are compounded by reduced yields on
Interest on Lawyers Trust Accounts (IOLTA), which are currently under review for
constitutionality.

      The affected states and territories, in order of lost funding, are Puerto Rico;
Michigan; Ohio; Louisiana; Mississippi; Illinois; Kentucky; Wisconsin; Minnesota; Iowa;
Alabama; Missouri; Texas; Pennsylvania; Arkansas; West Virginia; Oklahoma; Indiana;
Tennessee; Kansas; North Dakota; Nebraska; South Dakota; Colorado; Montana;
Vermont; Virgin Islands; Wyoming; and Maine.

Work of the Office of Compliance and Enforcement
       The Office of Compliance and Enforcement is charged with a number of
functions to ensure that recipients are in compliance with the LSC Act and Regulations.
These obligations currently range from complaint investigations, to prior approvals of
some of recipients’ expenditures and activities, to on-site visits to scrutinize compliance
and provide training to recipients.

On-Site Reviews

       From April 1, 2002, to September 30, 2002, the Office of Compliance and
Enforcement (“OCE”) conducted on-site visits at the following eighteen (18) programs:
Southern Arizona Legal Aid; Ocean-Monmouth Legal Services; Legal Services of
Eastern Michigan; Anishinabe Legal Services; Legal Aid Society of Albuquerque;
Niagara County Legal Aid Society; Legal Aid of West Virginia; Legal Services of
Eastern Virginia; Rhode Island Legal Services; Legal Aid of Arkansas; Northern
Kentucky Legal Aid Society (follow-up also conducted of this program during the noted
period); Philadelphia Legal Assistance Center; Legal Services of Northern California; the
South Carolina Centers for Equal Justice; Central Southwest Mississippi Legal Services;
Lane County Legal Aid; Legal Services of Eastern Virginia; and Chemung County
Neighborhood Legal Services.

       These visits included Case Service Reviews/Case Management Reviews,
Technical Assistance Reviews, Accountability Trainings and orientation for new
Executive Directors. Furthermore, draft and final reports have been developed/issued for
the overwhelming majority of these visits.

A-50 Follow-Up

      During the noted period, thirty- five (35) audit findings were referred to LSC
management by the Office of Inspector General (“OIG”) for follow- up assessment,



                                            10
pursuant to the requirements of the A-50 process. LSC management has closed all noted
findings.


Complaint Investigations

       From April 1, to September 30, 2002, OCE opened thirty- four (34) complaints for
review and closed sixteen (16).

Subgrants Under 45 C.F.R. Part 1627

       OCE approved twenty-nine (29) subgrants during the noted time period.

Fund Balances Under 45 C.F.R. Part 1628

        From April 1, to September 30, 2002, OCE reviewed and approved sixteen (16)
fund balance waiver requests totaling $1,310,252, and approved three (3) deficit
liquidation plans totaling $304,840.

Prior Approvals Under 45 C.F.R. Part 1630

       During the reporting period OCE reviewed and approved six (6) requests totaling
$354,769 to purchase, lease or renovate personal, non-expendable property for the
following recipients: Alaska Legal Services Corporation; Acadiana Legal Services
Corporation; Memphis Area Legal Services; Merrimack Valley Legal Services; Legal
Services of North Louisiana; and Legal Aid Society of Hawaii.

Audit Reports

       OCE reviewed audit reports of 152 recip ients during the noted period.




                                           11
                                         TABLE 1

                                Management Report on
                   Office of Inspector General Audits of Grantees
                            Issued With Questioned Costs
                               For the Six Month Period
                              Ending September 30, 2002


                                                       Number of    Disallowed
                                                        Reports       Costs
A. Audit Reports for which final action had not
   been taken by the commencement of the                   0           $0
   reporting period.

B. Audit Reports on which management
   decisions were made during the reporting                0           $0
   period.

   Subtotals (A + B)                                       0           $0

MINUS:

C. Audit Reports for which final action was
   taken during the reporting period:                      0           $0

      (i)    Dollar value of disallowed costs
             that were recovered by management
             through collection, offset, property
             in lieu of cash, or otherwise.                0           $0

      (ii)   Dollar value of disallowed costs
             that were written by management.              0           $0

D. Audit Reports for which no final action has
   been taken by the end of the reporting period.          0           $0

   Audit Reports for which no final action had
   been taken within six months of issuance                0           $0




                                           12
                                       TABLE 2

              Management Report on Audit Reports Issued During
               The Six Month Period Ending September 30, 2002,
     With Recommendations That Funds Be Put to Better Use By Management
                     Agreed to in a Management Decision

                                                   Number of              Dollar
                                                    Reports               Value
A. Audit Reports for which final action had not
   been taken by the commencement of the               0                   $0
   reporting period.

B. Audit Reports on which management
   decisions were made during the reporting            0                   $0
   period.

   Subtotals (A + B)                                   0                   $0

MINUS:

C. Audit Reports for which final action was
   taken during the reporting period:                  0                   $0

   (i)     Dollar value of recommendations tha t
           were actually completed.                    0                   $0

   (ii)    Dollar value of recommendations that
           management has subsequently
           concluded should not or could not be
           implemented or completed.                   0                   $0

D. Audit Reports for which no final action has
  been taken by the end of the reporting period.       0                   $0

   Audit Reports for which no final action had
  been taken within six months of issuance.            0                   $0




                                           13
